Date       : July 15, 2011
Reply to
Attn of    : Office of Inspector General (OIG)

Subject    : Advisory Report No. 11-16, Implementation Status of the Electronic Records Archives
             System Requirements

To         : David S. Ferriero, Archivist of the United States


As part of our ongoing effort, to provide audit coverage to the National Archives and Records
Administration’s (NARA’s) Electronic Records Archives (ERA) program, we reviewed the
status of ERA system requirements. We found that, of the 853 system requirements contained in
the original ERA Requirements Document, 494 of them will either (a) not be satisfied at all, or
(b) will not be implemented until after the system development phase ends on September 30,
2011. 1 Many of these requirements represent significant system components such as record
descriptions, access restrictions, and redaction of assets. As a result, after six years of
development and over $378 million spent, the ERA will only remotely represent the system
NARA originally envisioned. This will have an adverse impact both upon NARA programs and
operations, and upon stakeholders attempting to access Federal records.

A system’s requirements describe the functionality needed to meet user needs and helps ensure
the system developed performs as intended in the operating environment. They should be clearly
defined and managed throughout system development in a disciplined way. Two system
requirement documents were developed, one in October 2005 and an updated one in July 2010.
The ERA Requirements Document, an accumulation of system’s requirements, originally
identified 853 requirements in 33 different functional areas as noted in Table 1 on the next page.




1
  In August 2010, the Office of Management and Budget (OMB) placed the ERA Program on its high-priority list which is
comprised of 26 high-risk IT projects selected from across the federal government. OMB also directed NARA to end system
development on September 30, 2011. System development had been planned to extend through March 2012.
                                  Table 1: Original ERA Functional Areas
                                                                                  No. of      No. of
                                                                                                         Percentage of
                                                                                 Original    Original
  Req.                                                                                                   Original Req.
                                                                                  Req.       Req. No
Category                        ERA Functional Areas                                                     No Longer in
                                                                                            Longer in
Number                                                                                                   Current Dev.
                                                                                             Current
                                                                                                            Phase
                                                                                            Dev. Phase
ERA1       The system shall manage the disposition of records.                     99           56           57%
ERA2       The system shall provide workflow management.                           49            5           10%
ERA3       The system shall provide the capability for descriptions.               42           41           98%
ERA4       The system shall manage authority sources.                              13           13          100%
ERA5       The system shall provide the capability to manage lifecycle data.        9            4           44%
ERA6       The system shall provide capabilities for sample records.               10           10          100%
ERA7       The system shall provide the capability to manage templates.            39           17           44%
ERA8       The system shall provide capabilities for preserving electronic         57           18           32%
           records.
ERA9       The system shall provide the capability for arrangements of             21          16            76%
           electronic records.
ERA10      The system shall store assets.                                          17           9            53%
ERA11      The system shall provide automated media handling.                       4           4           100%
ERA12      The system shall provide media management.                              12          12           100%
ERA13      The system shall manage security for electronic records.                39          23            59%
ERA14      The system shall provide security for itself.                           29           2            7%
ERA15      The system shall accept all types of electronic records.                 7           1            14%
ERA16      The system shall provide the capability to transfer electronic          20           7            35%
           records to ERA.
ERA17      The system shall provide the capability for access review of the        30          30           100%
           assets it contains.
ERA18      The system shall provide the capability for redaction of the assets     20          20           100%
           it contains.
ERA19      The system shall provide the capability to search the assets it         80          40            50%
           contains.
ERA20      The system shall provide access to the assets it contains.              33          21            64%
ERA21      The system shall provide a user interface.                              15           8            53%
ERA22      The system shall provide the capability for user registration.          26          12            46%
ERA23      The system shall provide user assistance.                               15           3            20%
ERA24      The system shall provide the capability for communications with         29          20            69%
           users.
ERA25      The system shall maintain an event log.                                 13          13           100%
ERA26      The system shall provide reporting capability.                          24          17            71%
ERA27      The system shall provide systems administration capabilities.           32          20            63%
ERA28      The system shall provide logistics management capabilities.             18          12            67%
ERA29      The system shall manage user subscriptions to services.                 18          18           100%
ERA30      The system shall provide service management.                            23          12            52%
ERA31      The system shall meet or exceed specified performance                    5           5           100%
           requirements.
ERA32      The system shall meet or exceed specified availability                   3           3           100%
           requirements.
ERA33      The system shall be designed in the context of NARA’s Enterprise         2           2           100%
           Architecture.
           Total Original Requirements                                             853         494          58%*
 *Note: 58% represents the percentage of original requirements that are no longer in the current development phase.

                                                             2
The ERA contract states the ERA System must support NARA’s end-to-end archival processes
for appraisal and scheduling, transfer, accessioning, description, maintenance, and access to
records. However, as noted in Table 1, 494 (58 percent) of the original requirements are no
longer planned to be included in the system by the end of the development phase on September
30, 2011. The ERA fiscal year (FY) 2010 Expenditure Plan states that, as technical challenges
have been encountered during the development of the system, there has been a tendency to
reinterpret some of the requirements stated in the original ERA Requirements Document. The
Requirements Document itself has remained the same, as has the scope of the system. A system
designed and built without clear understanding of the Requirements Document, and strict
adherence to its intent, may not meet NARA’s needs and user expectations. Further, ERA’s FY
2011 Expenditure Plan states the ERA must be built in strict conformance to both the letter
and/or intent of the Requirements Document, to ensure the level of flexibility and scalability
intended for the system. The concerns raised in the previous Expenditure Plans regarding the
systems requirements are now becoming a reality with less than three months to go in the
development phase. In our opinion, the ERA will not meet user expectations and will lack the
flexibility and scalability that was originally intended.

To illustrate, one-third (11 of 33) of the ERA functional areas have had all of the original
requirements associated with these areas removed, or deferred to post-Increment 5 2 (see Table 2
below).

                                                        Table 2
                              ERA Functions Having No Original ERA Requirements
                                  Included in the Current Development Phase
                 1.   The system shall manage authority sources.

                 2.   The system shall provide capabilities for sample records.

                 3.   The system shall provide automated media handling.

                 4.   The system shall provide media management.

                 5.   The system shall provide the capability for access review of the assets it contains.

                 6.   The system shall provide the capability for redaction of the assets it contains.

                 7.   The system shall maintain an event log.

                 8.   The system shall manage user subscriptions to services.

                 9.   The system shall meet or exceed specified performance requirements.

                 10. The system shall meet or exceed specified availability requirements.

                 11. The system shall be designed in the context of NARA’s Enterprise Architecture.

2
    The ERA System is being developed in five increments. See Attachment A for a description of the increments.
                                                            3
In addition, 36 requirements related to the capability of providing descriptions of the records are
now allocated to the Archival Research Catalog (ARC) Description Tool, which is part of the
ARC System. ARC is a legacy system that according to ERA’s 2007 Exhibit 300, Capital Asset
Plan and Business Case Summary 3, was planned to be retired in September 2010. However,
ARC is currently being enhanced and a contract valued at over $7.9 million was issued in
September 2010 for the development and support of the ARC Authority and Description Tools.

Other ERA requirements related to the following areas have also been removed or deferred:

                                   Other ERA Requirements Removed or Deferred
                    Access review of the assets (determining what records or parts of records have
                    access restrictions)
                    Redaction of the assets

                    Management of Freedom of Information Act (FOIA) requests
                    Capabilities for appraisals (the process of determining the value and thus the
                    disposition of records)
                    Disposition of records (manage when records get destroyed)

                    Log all system events (audit trails)
                    No single point of failure (having redundancy so that if part of the system fails, it
                    will not stop the entire system from working)
                    System administration capabilities such as providing tools for system level
                    testing; providing consolidated application error logging; balancing system loads;
                    and monitoring the performance of all its storage systems



Senior NARA officials stated that by removing/deferring these system requirements, many of the
functions the ERA was to have automated will now have to continue to be performed in a labor
intensive, time consuming, and less efficient manner. They added that until the functionality is
implemented into ERA or another system, they would continue to perform their jobs the same
way, while also looking at more robust alternatives or interim solutions. They also
acknowledged there will be additional costs associated with implementing these requirements in
the future.

During the summer of 2010, NARA officials revised the Requirements Document, decomposing
the 853 original requirements to a level such that each requirement could only be allocated to one
increment. This action resulted in a revised set of 1,577 requirements that were (a) allocated to
Increments 1 through 5, (b) deferred to post-Increment 5, or (c) removed from the scope of the
ERA program.


3
    Agencies develop an Exhibit 300 to justify each request for a major information technology investment.
                                                             4

                 Breakdown of ERA Requirements after Decomposition
           853      Original Requirements
          +724      New Decomposed Requirements
          1577      Total Requirements After Decomposition
          -171      Original Requirements Removed From ERA**
          1406      Total Functional Requirements***

**Requirements were removed due to: no longer being valid because of NARA’s business

processes or ERA’s implementation approach (81), being allocated to another system or group

(57), and being structural (i.e., headings for requirement groupings, not functional requirements)

(33).

***The Total Functional Requirements includes 323 original requirements that are being 

deferred to Post Increment 5 and are no longer part of the current development phase.



                          Requirements By Increment
                     (Original Req. Included in Increment)


                                                               Incr. 1
                                                                 319
                             Post Incr. 5                       (230)
                                428
                               (323)




                                                                         Incr. 2
                                                                          158
                                                                           (0)

                               Incr. 5
                                182                        Incr. 3
                                (41)                        184
                                             Incr. 4        (88)
                                              135
                                               (0)



The first number in each increment section of the chart above shows the functional requirements
designated for that increment while the numbers in parentheses ( ) shows the original
requirements assigned to each increment.

                                                  5
The Requirements Document, which is maintained throughout a system’s development, should
be updated when changes occur in business processes, user priorities, and budgets according to
generally accepted system development life cycle principles. Because NARA officials waited so
late in the development phase to revise the Requirements Document, it may be too late to
achieve any substantial benefits from this exercise.

At the end of the current system development phase on September 30, 2011, with 58 percent of
the original ERA requirements having been removed or deferred, the ERA will only remotely
represent the system that was originally envisioned. After six years of development and over
$378 million spent, NARA will get an ERA with much-reduced functionality, with less than half
of the original requirements having been achieved. Management officials have represented that a
number of original requirements were no longer required based upon factors such as
technological changes that evolved since program inception or efficiencies identified by the
contractor Lockheed Martin Corporation. While the OIG does not take issue with the
applicability of this statement to certain requirements, we note that many of the more critical
requirements that have been deferred or removed do not fall within this definition or
interpretation. For example, requirements related to appraisal capabilities which are the process
of determining the value and thus the disposition of records.

The ERA System represents the largest information technology project ever undertaken by
NARA. Because of the importance of the ERA to NARA’s future, the OIG has dedicated
resources to provide program oversight. This report represents our ongoing efforts in this regard.
In a previous report, “OIG Monitoring of the Electronic Records Archives Program Status,”
dated January 6, 2009, we reported that, because of funding and other issues, it was likely that
the ERA would not achieve Full Operating Capability as originally envisioned, i.e., the ERA will
not have all the desired functionality when the development contract with the Lockheed Martin
Corporation ends. Subsequently, in an April 16, 2009, report, “OIG Monitoring of the Electronic
Records Archives Program Status,” we raised concerns that additional funding would be needed
to complete the program due to the shifting of critical ERA requirements to later increments even
though the development contractor was reporting favorable contract cost and schedule
performance.

Our review effort consisted primarily of reviewing applicable ERA documentation such as the
ERA Requirements Document; ERA Exhibit 300 (Capital Asset Plan and Business Case
Summary); ERA Expenditure Plan; ERA Business Case Analysis; and interviews with
responsible ERA Program Office officials. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.


                                                6

•        If you have any questions concerning the information presented in this Advisory Report, or there
         are other areas of the ERA Program that you would like for us to review, please do not hesitate to
         contact me.




    Lc   Paul Brachfeld
         Inspector General

         cc: NH (M. Wash)




•




•
                                                        7
                                                                                Attachment A

                           Description of the ERA Increments
Increment 1: established the ERA Base System including the hardware, software, and
communications to deploy the system. The base system provides the ability to preserve
electronic data in its original format; enable disposition agreements and scheduling; and receive
unclassified and sensitive data from agencies.

Increment 2: established the EOP System which is designed to handle records from the
Executive Office of the President.

Increment 3: provided storage and access capabilities for electronic records of the Congress,
tools for the public to search and access electronic records, and upgrades to the base system.

Increment 4: was a short duration set of tasks (3 months) that dealt with early requirements
work for expected Increment 5 business functions.

Increment 5: is expected to include instances for classified and Census data.




                                                8

